 

GrorciA DEPARTMENT OF LAw

40 Capitol Square SW
CHRISTOPHER M. CARR Atlanta, Georgia 30334-1300 www law.ga.gov

ATTORNEY GENERAL (404) 656-3300

January 21, 2020

Honorable Scott S. Harris

Clerk of the United States Supreme Court
1 First Street, N.E.

Washington, D.C. 20543

RE: Jamil Abdullah Al-Amin v. Timothy C. Ward
Case No. 19-573

Dear Mr. Harris:

Respondent Timothy C. Ward respectfully requests an extension of time to respond
to the petition for a writ of certiorari. On January 2, 2020, this Court ordered a
response to the petition for a writ of certiorari. That response is currently due on
February 3, 2020. Respondent requests a 30-day extension to and including March
4, 2020. The extension is requested due to the press of other matters, including pre-
existing personal and professional commitments.

Sincerely,

1 =)

Andrew A. Pinson
Solicitor General of the State of Georgia

 

cc: Miles J. Alexander
Counsel for Petitioner
